<html>
<title> - THE USE OF TECHNOLOGY AND INNOVATION TO INCREASE WATER SECURITY AND ENABLE ECONOMIC DEVELOPMENT IN THE WEST</title>
<body><pre>[Senate Hearing 116-341]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-341
 
  THE USE OF TECHNOLOGY AND INNOVATION TO INCREASE WATER SECURITY AND 
                ENABLE ECONOMIC DEVELOPMENT IN THE WEST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                            WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2019

                               __________
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
39-867                WASHINGTON : 2021         
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                    Subcommittee on Water and Power

                        MARTHA McSALLY, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
BILL CASSIDY                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
LAMAR ALEXANDER


                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
             Lane Dickson, Senior Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
         Melanie Thornton, Democratic Professional Staff Member
         
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
McSally, Hon. Martha, Subcommittee Chairman and a U.S. Senator 
  from Arizona...................................................     1
Cortez Masto, Hon. Catherine, Subcommittee Ranking Member and a 
  U.S. Senator from Nevada.......................................     5

                               WITNESSES

Sabo, Dr. John Louis, Director, Future H<INF>2</INF>O, Arizona 
  State University...............................................     7
Lang, Amit, Chief Executive Officer, EMS Mekorot Projects Ltd. 
  Israel.........................................................    15
Hoffmann, Margi, Community Relations Director, Farmers 
  Conservation Alliance, and on behalf of the Family Farm 
  Alliance.......................................................    23
Sewald, Mary Beth, President and CEO, Las Vegas (Nevada) Metro 
  Chamber of Commerce............................................    44
Harper, Stephen, Global Director of Environment, Energy and 
  Sustainability Policy, Intel Corporation.......................    52

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cortez Masto, Hon. Catherine:
    Opening Statement............................................     5
Greater Phoenix Economic Council:
    Letter for the Record........................................     3
Harper, Stephen:
    Opening Statement............................................    52
    Written Testimony............................................    54
    Responses to Questions for the Record........................    73
Hoffman, Margi:
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................    71
Lang, Amit:
    Opening Statement............................................    15
    Written Testimony............................................    17
McSally, Hon. Martha:
    Opening Statement............................................     1
Sabo, Dr. John Louis:
    Opening Statement............................................     7
    Written Testimony............................................     9
Sewald, Mary Beth:
    Opening Statement............................................    44
    Written Testimony............................................    46
WateReuse:
    Statement for the Record.....................................    96


                  THE USE OF TECHNOLOGY AND INNOVATION

                 TO INCREASE WATER SECURITY AND ENABLE

                    ECONOMIC DEVELOPMENT IN THE WEST

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Martha 
McSally, presiding.

           OPENING STATEMENT OF HON. MARTHA MCSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally [presiding]. The hearing of the Senate 
Energy and Natural Resources Subcommittee on Water and Power 
will come to order.
    As with many sectors of our economy, technology and 
innovation are playing an increasingly important role in the 
management of our water resources. Meeting the water demands 
for our growing cities and businesses require us to develop new 
supplies and make every drop count. Technological advances are 
being deployed around the world to do both of these things and 
combined with traditional infrastructure, present a great 
opportunity to increase drought resilience and enable continued 
economic growth in the West.
    As we think about the future of water innovation, it is 
important to remember that many of these innovative practices 
and systems are dependent on deployment of other advanced 
technologies such as broadband. So addressing the digital 
divide in America is not just about making sure our rural 
constituents have access to the latest Netflix shows, it is 
also about water security and economic security.
    The advancements we are seeing address a broad spectrum of 
water management challenges and are being deployed in 
agricultural, municipal and industrial sectors. In our 
watersheds, modern forecasting, data and modeling are being 
used to better manage the reservoirs. On the farm, precision 
irrigation and other systems are reducing water and energy use. 
And municipal and industrial water users are deploying advanced 
membranes to get useable water from new sources like 
wastewater, salt water and oil and gas operations. We are also 
seeing creative partnerships, policy updates and financial 
structures that improve our water security.
    Arizona has a long history of trailblazing innovative 
technology in institutions to improve water resource 
management. Whether developing the Palo Verde nuclear power 
plant to run entirely with reclaimed water, adopting forward 
thinking groundwater codes and resolving tribal water rights or 
one of the numerous other practices adopted across our state, 
embracing outside of the box solutions has always been an 
important factor for Arizona's water supply. But these efforts 
are only accelerating.
    The state strategic plan for water sustainability that 
looks out to 100 years calls for everything from seawater 
desalination in partnership with Mexico to direct potable 
reuse, while other options like modernizing the Roosevelt Dam 
operations using more advanced data and science-driven forest 
management to improve watersheds are also being pursued.
    In desert cities like Phoenix and Tucson and Las Vegas, of 
course, there is also a close link between adopting these 
cutting-edge water technologies and practices and the ability 
to attract businesses and manufacturing because it demonstrates 
a long-term commitment to a sustainable water supply and 
provides a certainty needed to make major investments.
    To this point, without objection, I would like to submit a 
written statement from the Greater Phoenix Economic Council for 
the record.
    No objection?
    Senator Cortez Masto. No objection.
    Senator McSally. No objection.
    [Statement from the Greater Phoenix Economic Council 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator McSally. As we look to build off the progress made 
in Arizona and across the West, it is also important to look 
around the world to find the best practices that will continue 
to help move us forward.
    By necessity, Israel has been leading the way on many 
aspects of water innovation for several decades. So I 
appreciate Mr. Lang being here and look forward to hearing from 
him and our other witnesses about potential opportunities for 
technology transfer and international cooperation on this 
issue.
    I want to thank the witnesses for being here. I look 
forward to hearing about both the state of innovation in the 
water sector and opportunities to further utilize advanced 
technologies to increase our water security.
    With that, I will now turn to Ranking Member Senator Cortez 
Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Chairman McSally, for 
holding this hearing on an issue that, I think, we both can 
agree is so important to the Western states.
    I would like to welcome our panel of expert witnesses. As 
the Chairwoman mentioned, we will hear from a range of 
viewpoints today on different water innovation and technology 
approaches. This is an increasingly important topic, because we 
must embrace forward-thinking solutions when addressing water 
security.
    Growth in population and the economy, along with food, 
energy and environmental needs, pose challenges in the ability 
to meet water demand. Looking to the future, climate change is 
expected to further stress our water systems both here in the 
United States and around the world. Solutions to these growing 
water challenges lie, in part, in developing and adopting 
innovative water policies and technologies.
    In my home State of Nevada, water providers recognize the 
competing uses of water and how this adversely affected water 
management. These stakeholders came together in the 1990s to 
create a regional water agency which is the Southern Nevada 
Water Authority. The creation of this water authority was 
considered innovative at the time and brought a new 
collaborative approach to water management in Southern Nevada, 
one that integrates people, economies and resources on a 
regional scale.
    In Nevada, we have drastically reduced consumption by 
recycling water, and this is a critical component of the 
state's effort to use water supplies more efficiently. In 
Nevada, we recover roughly 75 percent of our wastewater. And in 
Southern Nevada, we currently reuse nearly all of our 
wastewater. Water recycling and reuse play an important role in 
addressing water security in the arid West.
    Although water recycling and reuse is just one tool in our 
waste management toolbox, we must also look at many different 
approaches to water management.
    I am especially pleased to have Mary Beth Sewald here today 
from the Las Vegas Metro Chamber of Commerce to highlight the 
diverse approaches Southern Nevada is deploying to address 
their water needs. The Las Vegas Metro Chamber of Commerce has 
been instrumental in supporting a number of municipal policy 
innovations that have significantly changed Las Vegas' reliance 
on water. The Chamber continues to work tirelessly on 
partnerships that promote smart water use and ensure economic 
development in the region. Southern Nevada is a recognized 
leader in water conservation and, as Mary Beth will discuss, 
has many forward-thinking policies that holistically address 
water supply and demand.
    We must also look at the complex relationship between 
energy and water. It takes a lot of water to produce energy, 
and it takes a lot of energy to produce clean water. That is 
why I am planning to introduce a bill that aims to decrease 
water and energy intensity by directing the Department of 
Energy to incorporate water use and manufacturing into all of 
its relevant research and development programs. This bill is a 
good example of how innovative solutions to improve energy and 
water efficiency are developed, and it is an important 
component in our discussions today about addressing water 
security with innovation and technology.
    I would be remiss not to mention the Drought Contingency 
Plan (DCP) and how important water innovation and the 
discussions we are having here today are for managing our water 
resources within the Colorado River Basin. While we may have 
different water concerns and needs depending on our corner of 
the world, we can certainly take the lessons learned from these 
experts to think differently and more innovatively about our 
approaches to water management.
    I look forward to hearing from our witnesses about the 
future of technological innovation and what else we can do as a 
society to ensure we have adequate water supplies for future 
generations.
    Thank you.
    Senator McSally. Thank you.
    And yes, the Drought Contingency Plan was where everyone 
came together. Seven states, all 14 Senators, and within six 
days we got it passed out of the Senate and the House which is 
why you probably didn't see it on the evening news because it 
was an important issue that was unifying here in Washington, 
DC.
    Anyway, we are pleased to have five excellent witnesses 
with us today. First up is Dr. John Sabo, Director of Future 
H<INF>2</INF>O at Arizona State University (ASU). ASU and the 
University of Arizona are doing a lot in this area, so it is 
great to have John talk about his work in Arizona and across 
the globe.
    Next, we will hear from Mr. Amit Lang, who is the CEO of 
EMS Mekorot Projects, a subsidiary of Israel's national water 
company. Mr. Lang, we are very pleased to have you here today, 
all the way from Israel, to share your extensive, on-the-ground 
experience with this issue.
    Ms. Margi Hoffmann, the Community Relations Director at the 
Farmers Conservation Alliance, will testify after that.
    Then we will hear from Ms. Mary Beth Sewald, who is the CEO 
of Las Vegas Metro Chamber of Commerce.
    And finally, we will hear from Mr. Stephen Harper, the 
Global Director of Environment, Energy and Sustainability 
Policy for Intel.
    Dr. Sabo, thank you again for being here. You are 
recognized for five minutes.

          STATEMENT OF DR. JOHN LOUIS SABO, DIRECTOR, 
              FUTURE H2O, ARIZONA STATE UNIVERSITY

    Dr. Sabo. Senator McSally, Ranking Member Cortez Masto, 
thank you for having me. It's a pleasure to be here.
    I'm going to talk today about manufacturing and 
infrastructure in the context of technology.
    Water is a key component of economic growth and an 
essential ingredient of our nation's manufacturing machine. It 
accounts for 12 percent of U.S. economic output and only uses 6 
percent of the nation's water and that's compared to, on the 
farm, 6 percent production for 37 percent of the water use.
    Products as diverse as automobiles, plastics, microchips, 
and we're going to hear from Intel later, paper, oil and gas, 
beverages like soda and beer, all require water for production. 
Hence, without even considering food or agriculture, water is 
driving the U.S. economy and it depends on it. But water 
infrastructure is failing and that's one of the points that I 
want to spend a little bit more time on today.
    So grades for dams, levees, drinking and wastewater 
treatment facilities and inland waterways are all lower than 
Cs. I'm a professor, so I know that's bad. They're all in the D 
to D+ range. Examples of infrastructure beyond the ones I 
mentioned, dams and levees are canals, aqueducts, which, you 
know, are important in the West and also natural 
infrastructure, including wetlands, coastal marshes, forests 
and most importantly aquifers, which are an unrecognized but 
very strong part of our natural infrastructure portfolio. 
Hence, the portfolio includes both built and natural 
components.
    Broadly speaking, resilient manufacturing infrastructure 
requires water infrastructure that can buffer against the 
extremes, so that infrastructure needs to provide adequate 
water during a drought but also protect key other components of 
infrastructure and manufacturing from things like floods.
    The dependence of water and manufacturing is multisector, 
and it's a consistent theme across the U.S. sunbelt. I want to 
broaden it from the West to the sunbelt because that's where 88 
percent of the population growth will occur in the United 
States between now and 2030, and it's also where extremes are 
expected to intensify both in terms of droughts, which we've 
heard before, and hurricanes.
    So secure water supplies will increasingly become a key 
predictor of business growth in the sunbelt, especially cities 
in the sunbelt. The key question that the cities in the sunbelt 
should be asking is how do we attract new business and grow 
business with less water? And this is a theme that Nevada is 
very familiar with and, in fact, I've talked to many people 
from Nevada about this theme and business development there.
    At the ground level, businesses will need to engage 
directly with municipalities to develop the infrastructure 
necessary for securing their water and Intel has great 
experience in doing this in Phoenix, in particular. But, most 
importantly, sunbelt cities are an ideal location for new 
places of business development for developing the business 
around the technology of water use efficiency. And that 
business then would be important not just in manufacturing but 
in other sectors like agriculture and in municipalities. Hence, 
water sustainability is the business opportunity itself and 
that should be the motivation, I think, in sunbelt cities and 
in engaging organizations like the Chambers.
    Okay, so, theory of change. I would encourage the water 
community and this Committee to view the future of water as one 
with opportunity and potentially even abundance. Our goal 
should not be to achieve an A tomorrow, but rather to first get 
a passing grade and then continue on with perseverance toward 
that A mark later in the future.
    Improving U.S. water infrastructure and safeguarding 
manufacturing both domestically and abroad requires investment 
in three areas: First, research; second, incentivizing the 
business of water technology across cities in the sunbelt; and 
third, in institutions, in particular in finance reform. So I'm 
going to talk a little bit about those three in my final 
minute.
    The first is in research. I propose coordinated, cross-
agency investment in use-inspired water research in three 
areas: The first is in resilient infrastructure, and this area 
would include research about how to coordinate natural and 
built infrastructure; second, in manufacturing and, in 
particular, the efficiency of the manufacturing process with 
respect to water; and the third, as the Ranking Member 
mentioned before, the link between water and energy is very 
relevant to the manufacturing processes. And I can answer 
questions about that later.
    The second area is growing water-wise business. I propose 
that cities across the U.S. sunbelt--we know that, for example, 
automobile manufacturing has increased dramatically in the 
Southeast United States, so it's also important there--look to 
incentivize innovation ecosystems like those in Israel around 
water technology and leverage those to grow the business of 
water security. Growing the business of water security is what 
we need to be doing.
    And then finally, finance, and I have four seconds left, 
there are reforms in finance that are important. I think 
looking to the water, the municipal water supply in Washington, 
DC, and the finance innovation that they've done here, both 
with green bonds and with 100-year bonds, is important. I also 
think we have existing programs like the revolving funds which 
could be expanded, both in terms of funding and scope, to help 
not just municipalities but agriculture and manufacturing 
achieve water security goals.
    And I'll stop there.
    Thank you.
    [The prepared statement of Dr. Sabo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator McSally. Great. Thanks, Dr. Sabo.
    Mr. Lang.

       STATEMENT OF AMIT LANG, CHIEF EXECUTIVE OFFICER, 
                EMS MEKOROT PROJECTS LTD. ISRAEL

    Mr. Lang. Good morning. I wish to thank Chair Senator 
McSally, Ranking Member Senator Cortez Masto and members of the 
Subcommittee for your kind invitation.
    My name is Amit Lang, and I'm the CEO of EMS Mekorot 
Project which is a subsidiary of Mekorot, the Israeli national 
water company.
    Since you have my written testimony I'd like to start with 
the bottom line. Water shortage, scarcity, secured and reliable 
supply can be overcome and is achievable. We in Israel did it 
and have been doing it for decades. By we, I mean, the State of 
Israel through Mekorot, it's national water company, which is 
responsible for approximately 70 percent of the total water 
supplied in Israel with less than 3 percent loss in the water 
of Mekorot.
    In order to achieve those goals, even in very challenging 
climate zones and changes--most of Israel is in an arid and 
semi-arid climate--one must have a good infrastructure for 
transition of the water with very low weight of loss. This is a 
fundamental pillar that on top of it come the other layers of 
management systems, remote control and command systems, dealing 
with different sources of water and many more.
    Alongside that, one must have supportive regulatory 
framework that it's main goal, from our experience, is making 
sure that the different areas for end users will cover all 
costs. That's what we do.
    It all started when the young state decided upon the 
largest infrastructure project that has ever been held in 
Israel and Mekorot to be the national carrier which its main 
idea was to carry water from the North of Israel that was 
relatively rich with water, mainly the Sea of Galilee, to the 
dry South to enable population and agriculture. It was 
inaugurated successfully in 1964 and still is the basic 
foundation of the national network.
    Later on, Mekorot was the pioneer in implementing and 
installing pumping equipment in the mountain aquifer. As early 
as 1960 and 1970s Mekorot drilled boreholes to the depths of up 
to 5,000 feet, depths usually associated with the search of 
oil. Those boreholes were installed with tons of pumping 
equipment and are still supplying water today.
    When that wasn't enough and the population grew and more 
isolated rural communities arised, we in Mekorot were one of 
the pioneers in implementing reverse osmosis simulation. In 
1975, Mekorot built the first RO desalination plant for 
brackish water for the City of Eilat. Eilat, the most southern 
city in Israel that was so isolated by the desert and as a 
result of that, without connection to the national water 
carrier, became the most visited city in Israel as a popular 
destination to visit the Red Sea.
    Alongside desalination, Mekorot also developed the ability 
to reclaim effluents, which brought Israel to the first place 
globally in reclaiming an almost 90 percent wastewater for 
agriculture use and by that, lowering the demand for natural 
water.
    The ``Shafdan'' facility, which is operated by Mekorot for 
many years, is an example of advanced technology. The facility 
generates a larger quantity of effluents than the drinking 
water supplied by a single mega desalination plant on the 
seashore. After the best practice treatment, the effluents are 
supplied for unrestricted agriculture use in the Western Negev 
which is an arid zone.
    Nowadays, altogether, Mekorot is managing four different 
water sources together using the same system while managing 
demand in real time. To the best of our knowledge, there is no 
precedent to this. In order to do that, every point in our 
water supply system is controlled, monitored and managed. Data 
collected includes flow, pressure, temperature and many, many 
other parameters.
    Integrity management and the use of advanced control 
systems are critical. This system monitoring control processes 
are involved in the production, secure delivery and supply of 
water and the optimal management of the operation and 
maintenance of facilities. In fact, there was not even a single 
moment in Israel's history where we were unable to meet demands 
or taps were dry.
    Another issue is the energy usage management. The metering 
and monitoring systems enables Mekorot to constantly implement 
solutions that reduce the energy consumption. This has led to 
considerable savings in recent years.
    The coming years we'll be focusing on digital 
transformation. The data revolution is bringing new 
capabilities which exceed the current ones. Better solutions in 
the fields of water management, water quality and safety, 
energy efficiency, predicted maintenance and more are 
available. Where there is data, a meaningful solution can be 
offered.
    We have realized that our database, stored in the company's 
computers and servers or in the cloud, for all intents and 
purposes, is a ``gold mine.''
    I want to conclude by saying that the Israeli government 
recently decided to allow Mekorot to share their extensive 
knowledge accumulated by their company for the purpose of 
exporting digital knowledge services.
    We will be happy to work with any American company 
organization in the public or private sector to help implement 
a reliable and secure water supply, anytime, anywhere.
    Thank you.
    [The prepared statement of Mr. Lang follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
      
    Senator McSally. Great. Thank you.
    Next is Ms. Hoffmann.

  STATEMENT OF MARGI HOFFMANN, COMMUNITY RELATIONS DIRECTOR, 
FARMERS CONSERVATION ALLIANCE, AND ON BEHALF OF THE FAMILY FARM 
                            ALLIANCE

    Ms. Hoffmann. Chair McSally, Ranking Member Cortez Masto, 
my name is Margi Hoffmann. I'm the Community Relations Director 
at the Farmers Conservation Alliance, and I just want to say 
thank you for being here today and for inviting us to speak. 
The Farmers Conservation Alliance--I'm also here on behalf of 
the Family Farm Alliance, and our two organizations have been 
working for decades to modernize irrigation systems in the 
Western United States.
    Most of the water in the Western United States moves 
through irrigation districts that were constructed over 100 
years ago. And while we have a lot of technologies that exist 
today, those technologies are sitting on the sidelines because 
a lot, because the technologies are sitting on the sidelines as 
we struggle with ways that we can come up with to modernize the 
systems and actually deploy those technologies for the benefit 
of the community.
    Modernizing these systems is one of the single, biggest 
wins that we can do for energy security, for water security, 
for food production and agricultural community resilience and, 
also, conservation.
    For example, Farmers Conservation Alliance is currently 
working with the Bureau of Reclamation just outside of Reno, 
Nevada, to install downstream fish passage at Derby Dam. And 
this will be the final piece in the puzzle to connect habitat 
for the Lahontan Cutthroat Trout which was once believed to be 
an extinct species.
    We can modernize these districts. We are modernizing these 
districts but, in the decade plus that we have been working 
across our organizations to do so, I would say there's four key 
takeaways that I want to focus on today.
    One is holistic planning and data. Oftentimes you have one 
side saying one thing and another side saying another thing, 
and there's no data to support either argument, either what the 
irrigation districts are capable of or what we can do in terms 
of meeting environmental needs. And so, what we do is go in and 
work with irrigation districts to look at the entire system and 
understand not only how that system can serve agriculture but 
also how that system can serve the community.
    We looked at Hood River Farmers Irrigation District and had 
they started with a holistic plan, they would have saved their 
patrons over $12 million as they've been redesigning their 
system. So creating efficiencies, looking at capital stacking, 
looking at technology deployment, has to start from the whole 
district or the whole basin and work from that place.
    Number two is calculating impacts. While we modernize these 
irrigation districts, we are reducing operations and 
maintenance costs, we are increasing agricultural resilience, 
but you can also install in-conduit hydropower generation, wi-
fi capabilities, bury transmission lines and serve not just the 
irrigation and agriculture community but also provide broader 
benefits to the community writ large.
    Understanding what those benefits are and the impact of 
those benefits helps leverage additional capital in addition to 
traditional funding sources, and it helps create strategic 
partnerships and alliances as opposed to continuing to fight 
over water in the West.
    Number three is earned revenue. The Federal Government 
invests significant capital in irrigation modernization. The 
State of Oregon, for example, has a $15 billion bi-annual 
budget. So we can't keep pace with the matching that's 
required. So if you have an irrigation district that can make 
money by hosting a pollinator corridor or providing local, 
renewable generation capabilities or can install fiber-optic 
cable that can also serve rural broadband, those are earned 
revenue strategies that they now have a contract to make money 
over a 20-year time horizon that they can use to bank a loan to 
modernize their system. And so, supporting not just irrigation 
but also other policies that help enable those earned revenue 
strategies and make those real is critically important to 
agricultural resilience.
    And number four is the co-location of infrastructure. If 
you bury a mile of pipe you convert a mile of open canal to 
pipe and then you do a mile of broadband and then you do a mile 
of buried transmission lines to reduce wildfire, that costs 
over $3 million. If you co-locate all that infrastructure, the 
costs of installation is $200,000. The irrigation districts 
have the rights-of-way already. We have an extensive network 
throughout the West. And then the irrigation districts can use 
that capital to reinvest in conservation that increases their 
community resilience and rural resilience as a whole.
    I would say irrigation modernization, in general, would not 
happen without the support of this Committee. I commend you for 
what you have already done and look forward to working with you 
in the future.
    I'll point to my written testimony where we have a litany 
of things that we would like to work on with Congress, but I'll 
point out three things that I want as takeaways.
    Number one, if we're looking at infrastructure practices, 
we can't just talk about potholes. We have to talk about 
natural and irrigation and hard infrastructure for water. That 
has to be part of the conversation.
    Number two, continued support of Farm bill programs like 
regional conservation partnership, the watershed planning and 
flood prevention, those are what is increasing the pace and 
scale right now.
    And number three is directing the United States Department 
of Energy to specifically address the water-energy nexus. I 
love that you brought that up. Thank you.
    Focusing on things like co-location, things like mixing of 
solar battery energy technologies that can also serve to power 
communities in the case that their power is shut off, as we're 
seeing right now across the Western United States due to 
wildfire.
    So, I'm over. Thank you very much. I appreciate it.
    [The prepared statement of Ms. Hoffmann follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator McSally. Great. Thank you.
    Ms. Sewald.

  STATEMENT OF MARY BETH SEWALD, PRESIDENT AND CEO, LAS VEGAS 
                   METRO CHAMBER OF COMMERCE

    Ms. Sewald. Thank you so much. My name is----
    Senator McSally. Can you turn your microphone on?
    Ms. Sewald. Oh, sorry.
    Thank you very much. My name is Mary Beth Sewald. I'm the 
President and CEO of the Las Vegas Chamber of Commerce.
    Thank you, Chairman McSally. Thank you for your service. 
Also a special thank you to Ranking Member, Nevada's own, 
Senator Cortez Masto, for inviting me before the Subcommittee 
today. I very much appreciate this opportunity.
    It is an honor to speak to you on the critically important 
issue of water and how the Southern Nevada business community, 
especially through technology and innovation, is playing an 
invaluable role in ensuring long-term access to water in the 
West. The Las Vegas Chamber is the largest business 
association, and the Chamber's mission is to promote a strong 
and diversified economy that will attract new business enabling 
existing businesses to expand and support a good quality of 
life. And that is why the Las Vegas Chamber is so engaged in 
water management and conservation throughout our entire region.
    The Las Vegas Metropolitan area is the second fastest 
growing city in the nation with the best job growth index. Our 
population is more than 2 million residents and we welcome more 
than 42 million visitors annually. Since 2011, the Las Vegas 
Valley has added 10,000 new businesses and over 180,000 new 
jobs.
    Sustaining this growth and vibrant economy requires our 
relentless management of water resources. That's why the 
Chamber has been such an active partner in water issues for 
decades. Water security is essential for any city. It is 
something that cities in the West focus upon every single day. 
We certainly do in Southern Nevada because the Colorado River 
is our lifeblood. Though Las Vegas receives only 2 percent of 
the river's total supply, the Colorado River allocation makes 
up 90 percent of Las Vegas' water supply.
    Southern Nevada has experienced drought conditions 
frequently for more than 20 years, the longest of which began 
in 2011 and lasted more than 5 years and, at times, reached D4 
emergency conditions. Because of ongoing drought conditions, 
Lake Mead, the reservoir where Nevada gets its Colorado River 
allocation, has been reduced to 40 percent with water levels 
having fallen more than 140 feet at Lake Mead since the onset 
of drought conditions.
    As a community, we've come to operate as though drought is 
our new normal. The new normal equates to extreme steps to 
conserve. Through these challenges, Southern Nevada has become 
a global leader in conservation. Even as our population has 
grown, we have found ways to reduce that water usage and make 
the most of this precious resource.
    We have established strict codes on new homes and 
commercial buildings, removed unnecessary turf, implemented 
public awareness campaigns and we strongly encourage everyone 
to incorporate good water management into their daily lives. 
And we've been aggressive in experimenting with brand new 
innovations as well. As a result, in Southern Nevada 99 percent 
of all indoor water use that reaches the sanitary sewer is 
captured, treated and reused.
    I want to highlight just a few of the very significant ways 
the business community has been a leader in conservation.
    Southern Nevada Water Authority's Water Smart Landscapes 
programs have yielded remarkable water savings by removing 189 
million square feet of grass and conserving over 130 billion 
gallons of water since the program began in 1999.
    The Water Efficient Technologies, or WET, program offers 
financial incentives to commercial and multi-family property 
owners to install water efficient devices. In 2019 alone, WET 
projects have resulted in water savings of nearly 50 million 
gallons annually.
    Also, the Southern Nevada Water Authority and the Southern 
Nevada Home Builders Association developed a Water Smart home 
program. This pilot project requires home builders to include 
water-smart landscaping, water-efficient appliances and meet 
other requirements to reduce water usage. Water Smart homes use 
approximately 49 percent less water than homes built between 
1990 and 2003.
    And finally, the WaterStart program that identifies real 
challenges facing water agencies and accelerates adoption of 
private sector innovation. WaterStart has evaluated 278 
prototypes and funded 22 pilot projects that have saved end 
users millions of dollars.
    What we've demonstrated in Las Vegas is that private 
business can be strategic partners in water conservation. In 
Clark County we have secured our water stability for the next 
50 years. Now we look to the future. How can we work together 
to ensure water delivery for the next 100 years, what new 
technologies will become available to help tackle those water 
challenges, and what investments will be needed from the 
Federal Government either in policy or infrastructure? The Las 
Vegas Chamber stands ready to collaborate and to serve even 
more.
    I want to thank Chairman McSally and Ranking Member Cortez 
Masto, both of you, for your leadership on this important issue 
and for the honor and opportunity to provide this testimony 
today.
    Thank you.
    [The prepared statement of Ms. Sewald follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator McSally. Thank you.
    Mr. Harper.

 STATEMENT OF STEPHEN HARPER, GLOBAL DIRECTOR OF ENVIRONMENT, 
      ENERGY AND SUSTAINABILITY POLICY, INTEL CORPORATION

    Mr. Harper. I will add my thanks to both the Chairwoman and 
the Ranking Member for this invitation to speak on an important 
topic. I'm Steve Harper. I direct Intel's global energy 
environment and sustainability policy activities.
    Manufacturing semiconductors is a very water intensive 
business and thus we place at Intel a very high priority on the 
security of our water supplies everywhere we operate. We 
operate internationally, including a major presence in Israel, 
but of interest to members of the Subcommittee, we have major 
manufacturing in Arizona, Oregon, New Mexico and also 
facilities in Colorado.
    Unlike many high-tech companies, Intel makes its own 
products. A majority of Intel's manufacturing and research and 
development happens here in the United States supporting a 
total of over 50,000 well-paid employees. And if you count 
contractors in our supply chain, the total number of jobs 
supported by Intel's presence in the U.S. is over half a 
million.
    One consequence of our large manufacturing footprint is 
that, for us, water security is a direct operational priority, 
not a supply chain issue. Semiconductor manufacturing is 
perhaps the most complex manufacturing or industrial process 
there is. While each of our different products has its own set 
of features, for our most up-to-date CPU chips, we pack over 
seven billion transistors onto a piece of silicon half the size 
of your thumbnail.
    The manufacturing process that produces that level of 
compaction and complexity involves using significant amounts of 
both water and what we call, ultra-pure water. Intel's Arizona 
facilities employ over 10,000 employees on two campuses. We are 
in the process currently of investing over $7 billion in adding 
additional capacity on one of those campuses and building what 
will be the most advanced semiconductor manufacturing facility 
in the world.
    Water also plays a very important role in our relationship 
with our communities, both in arid places like New Mexico and 
Arizona, as well as water rich areas like Portland, Oregon. 
We've been investing in water conservation projects for years 
and over the last two decades have saved close to 64 billion 
gallons of water.
    Despite these efforts, our dependence and our need for 
water is growing, along with the growth of our business and the 
complexity of our products. This has led us to ask ourselves 
what more can we and should we be doing, particularly in our 
operation, in our community relationships? Our onsite water 
management allows us to return or conserve about 80 percent of 
the water we initially draw, and we've taken many steps and 
made a lot of investments to get to that 80 percent figure.
    But that leaves us with a 20 percent gap in our water 
balance, water that is consumed within our operations. To 
address that gap, in 2017, we announced a new global commitment 
to restore 100 percent of the water we use by 2025. This means 
that for every gallon of fresh water we use, we will restore a 
gallon to our watersheds and our communities either through our 
own operations or collaboration in the community.
    To achieve this goal we are collaborating, as I said, with 
many community groups in areas, particularly in Oregon and 
Arizona, working with non-profits and conservation groups. To 
date, we have funded numerous projects in collaboration with 
non-profits to achieve this 100 percent goal.
    My written testimony talks a little bit about some of the 
examples, but I'd be glad to go into more detail in the Q and 
A.
    Once completed, these projects will restore close to half a 
billion gallons of water to the environment each year. Our 
project partners vary by site, but include the Nature 
Conservancy, National Forest Foundation, Trout Unlimited and 
the Arizona Land and Water Trust.
    Finally, I would like to move beyond Intel's operations and 
focus on how our technology, and information technology in 
general, can be employed to advance water security and economic 
development.
    I was in Denver last week at a workshop that we helped fund 
and there'll be a report coming out. This was organized by the 
Environmental Law Institute and Water Foundry to take a look at 
how artificial intelligence, blockchain, sensor networks and 
other applications of IT can be used to significantly improve 
water management and the focus was specifically on the Colorado 
River Basin.
    My written testimony goes into more detail, but basically 
we're talking big data. We're talking sensor networks. We're 
talking precision agriculture. Technology that exists today.
    In closing, Intel applauds the Subcommittee for examining 
the importance of water security to companies like Intel, as 
well as the link between water security and economic 
development. We urge the Subcommittee to further examine the 
use of IT technology and applications in the service of 
improving water management, particularly in the arid regions 
like the Colorado River Basin.
    Through funding basic research, government procurement of 
smart water technologies, outreach and technical assistance to 
small- and medium-sized agricultural operations, the Federal 
Government can do a great deal to advance progress in water 
management.
    Thank you.
    [The prepared statement of Mr. Harper follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator McSally. Wonderful, thanks. We will kick off 
questions, and I will start.
    Mr. Harper, thanks for mentioning the workshop last week. I 
wanted to ask you about that. We are very interested as we have 
passed the Drought Contingency Plan, now the implementation and 
where innovation and technology can continue to help the 
Colorado River Basin states for our future water needs. Is 
there anything you could share about the status of that effort 
in a little more detail and anything promising that has come 
from the discussion so far and what can we do to help?
    Mr. Harper. Well, it's early days and I don't want to over 
promise, but as somebody who really dislikes going to 
conferences and workshops that lead to no follow-up, this was 
actually a very pleasant surprise. And we designed it to be 
productive.
    What came out of it is an agreement to break into three 
discreet teams which have got the task now of developing 
specific plans for three types of projects. One is the use of 
data to enable and improve the financing of smart water 
technology investments in places like the Colorado Basin. The 
second is the use of data to facilitate water trading and water 
leasing in arid regions. And the third, which is the team that 
I'm part of, is to bring together in one or two locations in 
specific watersheds teams of people, communities, community 
groups, farmers, the water district operators and other 
stakeholders to agree on what data they need collectively to 
manage the local resource and then to work to develop that 
database and management tools to use the data to 
collaboratively manage the resource. And while doing that, 
develop a game that would allow gamification of water resource 
management training in other locations. So you get people to, 
essentially, play the role of the different stakeholders in the 
management process and use the game to, essentially, in each 
area it's applied, come to agreement on what data and what 
systems are needed in each watershed.
    So, you know, we'll see where that, where each of those 
three projects comes out, but that's the direction we're 
headed.
    Senator McSally. Great.
    Going back to the research discussion, do you have academic 
experts that are involved in that conversation? And what about 
any sort of collaborations, say, with Israel on what they might 
be able to offer for those efforts so we are not reinventing 
the----
    Mr. Harper. The answer to the first question is yes. We 
have a number, given the location it was, primarily folks from 
places like Colorado State University. But as we move into the 
lower watershed, particularly, I think, we've worked with ASU. 
We collaborate with Israel to a great extent where I think 
we're the largest private employer in Israel and have a long 
record of collaborating with the Israeli government in 
innovating water resource innovations there. So the answer is 
yes to both questions.
    Senator McSally. Great. Thanks.
    Dr. Sabo, you talked about the importance of research. 
Again, when it comes to the Drought Contingency Plan, do you 
see areas of research that focus on innovation that could help 
with the future of the Colorado River?
    Dr. Sabo. Thanks for the question, Senator McSally.
    Yes, I do. I think, you know, going back to Stephen's 
comments about big data and sensing, I think knowing where 
losses are happening is a really important part of the puzzle. 
And I think Israel is strong in that in the tech realm.
    But I think putting a positive spin on that and knowing 
where you can put resources and managing and evaluating how 
well that strategy is working, especially in recharge 
situations is a huge technology we need that probably starts in 
space with remote sensing and goes all the way to the data 
technologies that Stephen was talking about. And so, those are 
two areas that I would say are ripe for the picking in that 
realm, and that we're good at in Arizona as well.
    And then, I think the second is reuse technologies, 
targeted reuse technologies. Reuse is still cheaper than desal. 
It's going to be for a while. And understanding the context and 
the contaminants that need to be removed in certain situations 
and designing membranes to work for that activity, I think, is 
still a pretty active area of research. And that's something 
that could crosscut agencies.
    Senator McSally. When it comes to research opportunities, 
where do you see the gaps right now and what is the federal 
role through what agencies?
    Dr. Sabo. That's another good question.
    I think, and I'll point you to my written testimony, I've 
got three, sort of, general areas. One is, I'm going to get my 
notes out. One is advanced manufacturing. So, I think, having a 
manufacturing research effort focused on water is key. And it's 
not just----
    Senator McSally. And that is not existing right now?
    Dr. Sabo. No.
    And it's not just how do we do it better? It's how do we 
create better products that lead to higher resilience and 
better water management so it's actually, like I said earlier, 
in the business of water security.
    Senator McSally. Okay, I am running out of time. We can 
come back to the rest of them.
    Dr. Sabo. Okay.
    Senator McSally. But over to Senator Cortez Masto.
    Senator Cortez Masto. Thank you, and let me continue on 
that vein.
    First of all, I think from all of us in the West, we wake 
up always thinking about water, water, water. You don't 
necessarily always see that on the East Coast because there is 
so much water, right?
    And so, this idea of now everything we do from our economic 
development to the building to our management of this water 
infrastructure is key, particularly in Nevada which I call an 
innovation state. We are moving forward in renewable energies 
and tech manufacturing and we want to embrace this new 
technology, but coming with that, obviously, is water usage.
    There has been a theme here that I am interested in 
exploring a little bit more, data collection, not enough of it, 
and this idea that the data is going to be helpful for us 
initially to determine, really, how we manage our water 
infrastructure and the needs. But I am curious, as we identify 
and we have talked about it in different factions, the data 
that is needed. It is true, each location is going to be a 
little bit different on what that data tells us. Is that 
correct?
    Ms. Hoffmann, because you talked a little bit about it. I 
like the idea of the holistic approach, but I think it is one 
thing to say and it is another to get everybody in the room 
together to start focusing on it and bringing everybody 
together. How do we do that? Because I think the data is 
important. It is going to be unique to each geographic 
location, but, how do we get people to start thinking that way 
and bringing them together? What can we do?
    Ms. Hoffmann. Thank you, Senator, for your question.
    I absolutely agree with you. I think that data collection, 
a lot of times we'll collect basin-wide data or we have these 
huge gaps in data. So I think, investing in data collection 
about groundwater tables, water conservation efforts and things 
like that will be really helpful.
    But I would love to see every single irrigation district or 
water delivery system in the Western United States know what 
their system is, how much water they're losing, where the 
opportunities are because then we can start to layer in the 
technologies that will best serve that particular district and 
we can start to sort through the regulatory pathway and the 
financing pathway to actually make that dream a reality. And it 
also gets us out of this contentious and sometimes, frequently, 
litigious conversation about what people think is possible from 
what would happen if you modernized the system.
    And when we go in, we bring, you know, we spend about 
$250,000 per district that we work with to invest in data 
collection alone. We find that to be such a key piece because 
then we can actually have conversations, real conversations, 
with people who, frankly, should be strategic partners and not 
adversaries, to say here's what would happen if we did this 
together. And so, we've found that to be such a game changer in 
the conversation. Those strategic partners understand what the 
impacts are of modernizing that system. And we've seen 
everybody from the Sierra Club to the League of Women Voters 
to, you know, working hand in hand with the Deschutes Basin 
Board of Control in the Deschutes Basin in Oregon to modernize 
the irrigation systems because they understand that that's the 
single best victory that they could get from an environmental 
perspective. It's completely changed the conversation in that 
basin.
    And so, I think that data is such a critical part of having 
a ground-truthing and having a real conversation about the art 
of the possible.
    Senator Cortez Masto. Thank you.
    Mr. Harper, you talked about the three goals that from the, 
I think, it was a conference that was held. Is that the goal as 
well to identify and bring the stakeholders together to start 
talking about who those stakeholders should be in the room and 
how they start collecting the data that's necessary for their 
geographic locations?
    Mr. Harper. Absolutely. And it's not just collecting the 
data. It's, you know, data needs to be turned into information.
    Senator Cortez Masto. Correct.
    Mr. Harper. And it has to be information that is presented 
in a way that allows people to make informed decisions about 
the resource management questions they face.
    And so, that's why one of the projects that we're looking 
at coming out of the workshop is starting in one or two 
specific watersheds within the Colorado Basin, pull all of the 
stakeholders together, talk about what data they need, what 
data already exists, what form they need the data presented in, 
identify, you know, on a big Venn diagram what's the overall 
system look like, what are the pieces that each stakeholder 
needs--whether it's an information display design, whether it's 
a dashboard or some other kind of approach that presents the 
data in a way--that is intuitive to each stakeholder group?
    And then I want to say one more thing. I think we think, 
and this has been tried on the Chesapeake, the University of 
Virginia did something called the Bay Game where they created a 
board game where stakeholders that have interest in improving 
the health of the Chesapeake Bay could play different roles. So 
a local community group could play a farm organization. A farm 
organization could play the part of the state water quality 
official. And by trading roles and learning, okay, what makes 
the other person, why does the other person view the world the 
way they do? And that also can be used to identify what are the 
total Venn diagram of data that are needed for that particular 
resource management challenge.
    So, that's something that, I think, is worth trying. And 
we're going to try to do that and see whether it's applicable 
and generalizable to other watersheds.
    Senator Cortez Masto. Thank you.
    Madam Chair, I know my time is up. Can I just ask Mary Beth 
Sewald a follow-up question from the business community 
perspective? Do you see a role, I mean, in what we are talking 
about here and how the business community can come to the table 
as well?
    Ms. Sewald. Absolutely. Thank you for the question, Senator 
Cortez Masto.
    The business community in Southern Nevada is extremely 
engaged at every level from federal, state, local. We've also 
hosted and co-hosted national and international panels and 
events with Israel as well. And there are a lot of technologies 
in Southern Nevada that have been implemented.
    There are three main companies there that are working on 
technologies. The board game isn't one that we've tried yet, 
but I think that's a great idea. So absolutely, from ground 
zero the Las Vegas Chamber and the entire business community is 
extremely involved in this technology and innovation.
    Senator Cortez Masto. Thank you.
    Senator McSally. That board game is interesting. It is 
wherever you stand, depends upon where you sit. Maybe we should 
do that up here?
    Senator Cortez Masto. Here in Congress we need that.
    [Laughter.]
    Senator McSally. That would be dangerous.
    But anyway, okay, I digress.
    Mr. Lang, thanks for coming all the way from Israel to 
participate in this discussion. One of the reasons we wanted 
your expertise here is to be able to discuss where we could 
better collaborate and learn from each other, learn from Israel 
and not just in the area of technologies but best practices. 
Some things may apply, some things may not. You guys have shown 
more centralized management, which is great. That is not going 
to apply in a lot of other areas.
    But what else can be done for additional collaboration 
moving forward? And is there anything this Committee can do to 
help in that collaboration between Israel and the United 
States?
    Mr. Lang. Well, there's a long and good history between 
Israel and the United States, it being the first country that 
ever signed the free trade agreement with the U.S. And most of 
the activity of Israeli companies overseas is firstly in the 
U.S. The U.S. market is the first market they look to.
    But sometimes when we talk about the level state here and 
we talk about public tenders, I think that the Buy American Act 
is, kind of, restrictive for the Israeli companies trying to 
move forward in order to introduce their technology.
    Maybe you should consider something like a clear message 
regarding the states that say competition should be equal, 
especially with a trade partner such as Israel which is--and 
taking into account that at the end of the day no Israeli 
company is working alone here. It always with a local partner 
and usually the next step is operating an activity in the U.S. 
We have a lot of cases like this. So maybe a clearer message 
regarding that can help in increasing the cooperation, 
especially with the public sector.
    Senator McSally. Great. Thank you.
    Dr. Sabo, I know you do a lot of work with other countries 
as well, so do you have any perspective on how we can better 
collaborate and cooperate with Israel and other countries on 
water technology and water security?
    Dr. Sabo. Thank you for the question.
    Just to address the Israeli part of that question first. I 
think the first and largest thing that we can get from Israel 
is to try to study how they created the innovation ecosystem 
that led to the business of water security in Israel and try to 
replicate it. And I think Nevada is doing a great job doing 
that already.
    But it needs to be more regional than that for a market to 
happen, so it needs to happen across states. So that's the 
first thing, I think.
    The second thing is, I work in a lot of transboundary water 
areas. And I think one of the things that we can export in 
these sorts of situations like the Mekong, the Indus River, the 
Amazon River, is our know-how on interstate water management, 
particularly from interagency collaboration.
    So I work with the Army Corps of Engineers. I work with the 
Bureau. I work with the USGS. I work with NASA. All of these 
agencies, the State Department, all of these agencies are 
relevant there and that knowledge could be exported to help 
secure the business environment for manufacturing in other 
places in the world.
    Senator McSally. Great. Thanks.
    I wanted also to focus on desalination. This is, it seems 
to me, the technology that, if the cost could be brought down 
more, could be really game changing for us in the West.
    Mr. Lang, is there anything you could share about what 
Israel has learned about deploying that, and Dr. Sabo, on 
research in order to have breakthroughs in technology to make 
it more cost competitive?
    Mr. Lang. Yes. Actually, we are focusing these days, 
especially in energy efficiency. And as I said in my opening 
remarks, I think the base for all is the good infrastructure. 
On top of that come the other layers of system management, data 
collection, but you have to have first a very good 
infrastructure. And when I say infrastructure, I mean, good 
pipes. I mean, very efficient pumping equipment. Our pumps, for 
example, is 90 percent efficiency in energy. It's pretty much 
the highest that they have in the world. So when you have that 
and you install a part of that, all that, all the current 
technologies we chose there, we didn't invent anything new. 
It's integration, good integration of all parts on top of a 
good infrastructure. That's the secret, I think.
    Senator McSally. Great.
    Dr. Sabo, anything to add?
    Dr. Sabo. I mean, I would concur with that. I think there 
are a lot of great technologies that don't get used because at 
the end of the day you need a train of technologies to make 
things work and you need an end goal for that train of 
technologies.
    And so, an example would be how do we recycle water from 
oil and gas industry and use it for agriculture? We need a 
whole other thought process to get that whole tech train going.
    Senator McSally. Okay, great.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Mr. Lang, I have been to Israel twice, and I was really 
struck by how the arid parts of Israel remind me of my home 
town in Southern Nevada, right?
    I appreciate your comments because I do know that in 
Nevada, and particularly in the past, we've had delegations 
from our governors to our mayors visiting Israel, opening those 
doors to how we promote and work together on so many crucial 
issues that we have in common, like this issue of water 
security. So, thank you.
    I am curious, I want to open this up to both you and Dr. 
Sabo, though. One of the areas that I am interested in is 
natural infrastructure. And I think, Dr. Sabo, you mentioned 
that drought resilient water infrastructure is a key factor in 
providing adequate drinking water and protecting communities 
from floods.
    Natural infrastructure, I think, is an example of an 
innovative drought resilient tool that provides benefits for 
safeguarding water. I just want you to talk a little bit about, 
if you don't mind, why are nature-based solutions, such as 
natural infrastructure, an important component of water 
infrastructure and storage portfolio for what we are talking 
about today?
    Dr. Sabo. Thank you for the question. I think, well, I'll 
give an example first of natural infrastructure in the context 
that you brought up which is drought resilience and flood 
management. Wetlands have been drained and removed from 
landscapes all across the United States. They are natural 
places for recharge of aquifers and they also slow down flood 
peaks. So, they do both at the same time.
    I think the barrier to implementing them is that there has 
been very little research done on the price point of green 
infrastructure compared to grey. Do green projects pencil out 
in terms of the benefits they deliver and the cost that you put 
in them? And so, that's, kind of, where we are with it.
    My own personal take is that some combination of grey and 
green is much better than green in itself, so, some combination 
of natural in both. But certainly, we need to look to things 
like wetlands, forests and aquifers as parts of our 
infrastructure portfolio.
    Senator Cortez Masto. Thank you.
    And we also, part of the conversation earlier, I think many 
of you mentioned was reforms in finance and financing 
opportunities. Talk to us about here at the federal level what 
we should be thinking about. When we identify and appropriate 
funds to support financing, what, when you talk about reforms, 
what should, what can we do at a federal level to incentivize 
it or condition it to the extent that we are forcing 
communities to come together to really focus on water as part 
of the integral infrastructure package? What should we be, what 
do we need to know at a federal level when we are crafting 
those financial opportunities? And I will just open it up to 
the panel.
    Ms. Hoffmann. Thank you very much for the question, Senator 
Cortez Masto.
    One of the things that we have been looking at is really 
the demonstration side, and it also gets to the cost side. 
Like, if we're not grid connecting technologies and we're not 
inserting them into districts, then we can't start to scale 
those across the Western United States and bring those price 
points down.
    And so, one of the things that we're looking at is 
partnering with the United States Department of Energy. So, we 
have power shutdowns right now that are happening in California 
when it's too dry and it's too windy and it's too hot because 
they're trying to prevent wildfires. That's a really good 
thing.
    The community's only pieces of infrastructure that have 
backup generation are the hospitals being on diesel generators. 
And in Hood River County in Oregon, along an irrigation 
district, you have a water treatment facility, you have a gas 
station, you have the fairgrounds which can serve as an 
emergency response housing facility for the community.
    And so, what we want to do is partner with the Department 
of Energy and understand if we were to install ten megawatts of 
in-conduit hydropower paired with solar and battery technology, 
how do we integrate those into the water system and how do we 
optimize those technologies for community benefit? Then, when 
the big grid needs to come offline, power, we can still provide 
power to certain facilities in our communities through these 
systems.
    And so, I think it's about, I think that's one of the 
places where like, intentional focus on understanding what the 
regulatory barriers for the programmatic support. Like if we 
can do the demonstration project, we'll learn what doesn't 
work. And then, we'll understand how to come back and structure 
a program that can then scale that across the Western United 
States or help to scale it across the West.
    Senator Cortez Masto. Thank you. Thank you.
    Senator McSally. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and I thank both 
you and the Ranking Member for holding this important hearing. 
It is reminding me, making me feel old, actually, but times in 
which predecessors of yours, representing Western states, have 
brought these same issues up. I firmly believe that it is time 
for innovative decision-making and policy at the federal level 
as it comes to water.
    We know what is happening. We are having warming 
temperatures. It is challenging us, and we need better 
strategies. We need better investment, but we need better 
strategies.
    So one of the issues we have been dealing with in a 
rollover at the Commerce Committee is this issue of making sure 
we have good weather forecasting information. We are concerned 
that some over at the FCC are trying to steal or sell Spectrum 
and that would leave us short in giving us the right weather 
forecasting information. And we feel like if that is done and 
we don't really have good weather forecasting information, that 
might leave us short on a whole lot of ideas, obviously, 
preparation and response to a storm or conditions, obviously, 
like the ones we are dealing with in California today. It is 
very important to know what wind speed and other things are 
going to be.
    But I was going to ask, maybe Dr. Sabo or Mr. Lang, if you 
had a better judgment about weather forecasting when it came to 
rain. What policies would you be able to put in place that 
would help you?
    Dr. Sabo. I mean, this is, in many ways, the multimillion-
dollar question.
    But yes, this is the, when we think about forecasting 
climate, when we think about climate impacts on natural 
resources, rainfall is the hardest thing to predict. I think it 
starts in space and I think there are NASA missions that are 
addressing the rainfall issue now. So, I think that's, I mean, 
so I don't go totally out of my area of expertise, I think 
that's probably where I'd start is in space. And it sounds far 
reaching, but that's where we measure the stuff.
    Senator Cantwell. So you are saying that having better, 
accurate measurements might give us a strategy discussion that 
would, it would be, basically, a better road map, you are 
saying?
    Dr. Sabo. Yeah, yes.
    Senator Cantwell. Good.
    Mr. Lang.
    Mr. Lang. Actually, I don't have anything to add, because 
we're not focusing on that and my activity is focusing much on 
the infrastructure and the layers on top of that, less on the 
weather forecasting.
    We use the weather forecasting that we get from the 
National Bureau of Forecasting in Israel. It seems that it 
works fine in Israel. I don't know.
    Senator Cantwell. Well, you probably don't have the same 
debate going on with somebody trying to--we want both NASA and 
NOAA to have the accurate information for weather forecasting. 
That is what we know.
    I am curious as to, we are a very intense hydro system. 
That is where 70 percent or so of our electricity comes from. 
So when you have less snowpack, you have less hydro and it 
affects. So even a one-degree temperature change means less 
snowpack. It means bigger challenges to us.
    One thing that we have heard a lot about, and there are 
people here from the Yakima Basin project, is how we integrate 
a holistic approach to water resource management. We have been 
able to move forward because a diverse group of people that 
don't usually agree got together and agreed these are the most 
important things to do right now. And we think that is 
important because we think the legal battles that get us hung 
up for years are just really not cost-effective in helping us 
deal with these issues.
    But one thing that, for us, I think, is something to be 
discussed is aquifer recharge. And I don't know if there is 
anybody on the panel who wants to talk about that or suggest, 
but you know, Israel, you have taken this very aggressive move 
on desalinization and we feel there is some low-hanging fruit. 
If I am not going to be able to store water on Mount Rainier or 
Mount Baker because you are going to have more snowmelt, then 
what can we do to store that same source that is dropping to 
Earth. What more can I do to store that in a place that might 
be able to be used in these other conditions?
    Yes, Mr. Harper?
    Mr. Harper. Let me speak to that briefly, thank you, 
Senator.
    In my testimony I highlighted the fact that we're doing a 
number of, essentially, recharge projects with community groups 
and local communities in the Colorado Basin and also in Oregon. 
Many of those are aquifer recharge in their focus, and a lot of 
them are very, very simple. They're low-tech. They involve 
simple things like where there's a runoff chute amassing stones 
to slow the water down, and as the water runoff gets slowed 
down, more of it seeps into the ground and into the local 
aquifer. Some of it, you know, that's an example of green 
infrastructure, although it's also hard because of the stones. 
But it's not your traditional high-tech, high investment 
approach.
    There are a number of other ways you can do it through drip 
irrigation systems which is really, is obviously, pioneered. 
But the more water that actually stays in an aquifer, it 
doesn't have to be pumped up, or the more water that actually 
goes into the plant, the less there is need to withdraw and 
draw down.
    But I want to emphasize some very simple techniques like, 
for example, improving the efficiency of irrigation ditches 
and, you know, sometimes there's water recharge that is 
unintended because it's leakage. And that may be a good thing 
in the short run, but in the long run you want to have water go 
where you intend for it to go. So I would emphasize low-tech 
approaches.
    And the other thing I wanted to say, just briefly, the 
emphasis is on the West here, but while there aren't water 
insufficiencies in the East to the same extent there are on the 
West, the technologies that I highlighted earlier and have been 
talked about by other witnesses can be used on the water 
quality front, not just water supply front.
    We've done some work in the Chesapeake working with the 
Chesapeake Conservancy using very high-resolution aerial 
images, GIS systems and sophisticated computer programming, 
cloud computing capability to do extremely accurate rendering 
of the landscape in the Chesapeake. Why is that important? It's 
important because you could track land use and you can track 
where the water flows off of farm land carrying nutrients into 
the rivers and the bay itself. And if you can pinpoint those 
areas, you can address them with conservation in a much more 
efficient way. And they're currently looking at working with 
the Denver Water Department. Chesapeake, Denver, two very 
different areas. Why does the Denver Water Department want to 
use this technology? They're not so much interested in 
forecasting weather. They're interested in forecasting demand 
and they want to know from a year-to-year basis what the 
landscape looks like in the metro area so that they can better 
forecast what the demand for water is going to be.
    Are people putting in more lawns or putting in arid 
landscapes? Is land getting converted more rapidly than they 
think, therefore creating more hard landscapes and more runoff? 
That's another example of where the technology and sensors can 
be used both for water quality in the East and water quantity 
in the West.
    Senator Cantwell. Thank you.
    I know I am way over my time, but I thought that was very 
helpful. I am a big fan of satellite imagery for these 
purposes. I think it is just more data and information to tell 
us about usage and efficiency. I think we just have to realize 
temperatures are warmer. We are going to be more challenged. We 
need new strategies.
    Thank you.
    Senator McSally. Great. Thanks.
    I have a couple more quick questions.
    I appreciate many of the witnesses talking about the value 
of infrastructure. Our focus of the hearing is on technology, 
but technology by itself is not going to solve all these 
issues. We do have very aging infrastructure.
    This Committee has been very focused on this issue. We have 
some pieces of legislation moving forward to include 
modernizing the financing. That was something that came to my 
attention when I was in Yuma talking to the agriculture 
community there and for facilities like the Imperial Dam how 
they are held back from being able to invest in infrastructure 
because of the financing setup that they have. So we hope to 
move legislation forward and get it through the Senate and the 
House.
    But I did want to, Ms. Hoffmann, go back to some of what 
you said on this topic of infrastructure. When you talked about 
how digging to put in a pipeline and then digging to do 
broadband and then digging for transmission, that shouldn't be 
three separate projects. Of course it shouldn't be three 
separate projects. That is like master of the obvious, right, 
for efficiency and effectiveness. Why, in goodness, would it be 
three separate projects? Is it government bureaucracy, 
different agencies not talking to each other? I mean, anyone 
listening would say, of course it needs to be better 
coordinated and you do all three at once. So share the 
frustrations and the barriers and what could be done in order 
to fix that.
    Ms. Hoffmann. Thank you so much for your question, Madam 
Chair. I request to sit and hide under the table. Just kidding.
    It's a difficult question, and I think it has to do with 
managing any project whether it's wholly private sector or it's 
public-private or it's public, as these projects are, is 
incredibly difficult getting the financing to match up, getting 
through all of the regulatory permitting processes and doing 
that in a timely manner, stacking capital, understanding the 
benefits.
    And so, I think those, like the heart of our irrigation 
modernization program, just to modernize the water delivery 
system for water purposes is really hard because you're pulling 
in grants from the Federal Government, hoping that those match 
up with the state, hoping that you don't have to get a loan 
that you then have to pay interest on because your grant didn't 
come through in time. So those are some of the challenges.
    Co-location of infrastructure, what we're finding because 
of the significant decrease in cost. If we can match up the 
federal program like the ReConnect Program, for example, which 
can pay for the installation of fiber optic. And as we are 
converting irrigation systems, we're just co-locating and 
building that in. If you build it, they will come.
    There are internet service providers in these areas who are 
ready to invest, or transmission--if you're installing in-
conduit hydro and you have to pay wheeling rates but you can 
install your own transmission line to get closer to the 
substation to the customer where you're actually selling that 
power, the cost of building that is so much cheaper than the 
wheeling rate that you would pay over the 20-year life of the 
contract.
    And so, I think part of it is holistically understanding 
the system. And we're building into our methodology, fiber 
optic and transmission. And getting out ahead of the problem so 
then you can then--it's not the problem--getting out ahead of 
the solution so you can understand how to sequence, how to 
permit, how to stack capital, and how we actually do this will 
help us understand then how we can scale.
    Senator McSally. Great. Thanks.
    Last question, Mr. Harper. You talked about Intel's 
presence in Arizona and your initiatives, specifically your 
great presence in Chandler, about how manufacturing can really 
work in a desert environment and we really appreciate the 
partnership that you've had in Arizona. And you talked about 
moving toward 100 percent recharge.
    Can you share just a little bit before we go on, kind of, a 
path forward to get to that 100 percent and what types of 
initiatives are ongoing?
    Mr. Harper. Well, in my written testimony I said we had 
seven projects. I actually looked last night, and it's now up 
to ten projects and they're upstream from Chandler. They're in 
the tributary watersheds. But they vary dramatically and most 
of them are relatively small and relatively low-tech.
    But for example, my favorite is in, I call it Verde, but I 
guess locally it's the Verde Watershed. There's a project there 
where we worked with community groups and the farmers to change 
the crops that they grow from alfalfa which is very water 
intensive to barley. And the first question the farmers asked 
when that was proposed is, is there a market for barley?
    So what we've done is we've worked with local business 
folks to develop a couple of local breweries. And actually, we 
helped create the market for this replacement crop which not 
only is a lot less water intensive, but it grows in the 
wintertime as opposed to the summertime and there's obviously 
more water available. So the net net of that has been quite 
positive.
    So a number of other projects, soft and hard, in terms of 
infrastructure. The important thing is we're working with a 
company called LimnoTech based in Michigan, and they basically 
are the accountant. They basically do the analysis to make sure 
that at the end of the day when we take credit for X amount of 
water recharge, that there's hard analysis behind that and 
somebody can come in from outside and say, is this really 
delivering what Intel says it is? And the answer is going to be 
either yes or no, but it's going to be based upon real data.
    Senator McSally. Great. Thank you. I really appreciate 
everybody's testimony today.
    Senator Cortez Masto, any final word?
    Senator Cortez Masto. Thank you, no. I just so appreciate 
the hearing today, and all of you coming here. This has been a 
great conversation.
    Clearly, there is a lot of work we can do and continue to 
do. And I think the technology is going to give, provide, us 
opportunities.
    I am really interested in the space between the clear 
connection between water and energy use, and I do know that our 
global water demand and energy consumption continue to increase 
and we have to figure out how we work together to sustain both.
    Thank you for the conversation. This has been very, very 
informative. I appreciate you all coming here.
    Senator McSally. Alright, thank you.
    I, as well, really appreciate all of our witnesses for all 
your hard work in this area and traveling here and sharing your 
expertise. Lots of opportunity. Challenges equal opportunity, 
right? And lots of opportunity in front of us.
    So thanks so much.
    Questions may be submitted for the record before the close 
of business on Friday. The record will remain open for two 
weeks, and any responses you make will be a part of that 
record.
    Thanks again.
    The hearing is now adjourned.
    [Whereupon, at 11:14 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



</pre></body></html>
